May 20, 2021
Mr. Scott S. Harris, Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

Jairo Acosta v. Tan Lam, No. 20-1461

Jairo Acosta, Police Officer for the City of Los Banos, California, filed a
petition for writ of certiorari in the above captioned case on April 15, 2021,
seeking review of the Ninth Circuit’s denial of his petition for rehearing dated
November 16, 2020. The petition was docketed on April 19, 2021. On May 18,
2021, this Court requested that Mr. Tan Lam respond to the petition. Mr. Lam’s
response is currently due on June 17, 2021.
Mr. Lam respectfully requests, pursuant to Supreme Court Rule 30.4 and
Order 589 (dated March 19, 2020 and updated on November 13, 2020), an
extension of time to file a response to the petition. We respectfully ask for an
extension of 60 days, to and including August 16, 2021.
This extension is requested so undersigned counsel may adequately prepare
a response. Counsel’s preparation will be delayed because of time away from her
office for pre-arranged travel, and because of the heavy press of earlier filing
deadlines and assigned cases which have been substantially impacted by the effects
COVID-19 has had on counsel’s practice.
The undersigned informed Petitioner’s Counsel of Respondent’s need for an
extension of time to file a response to the Petition for Writ of Certiorari.
Petitioner’s Counsel informed that they object to Respondent’s request for a 60day extension.
Thank you for your attention.
Respectfully submitted,
/s/ Ayana Curry
cc: Suzanne Nicholson, Counsel for Petitioner Jairo Acosta (via email)

